APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS,
SEVENTH CIRCUIT
————
Nos. 18-2633 & 18-2738
————
VALBRUNA SLATER STEEL CORPORATION, et al.,
Plaintiffs-Appellees, Cross-Appellants,
v.
JOSLYN MANUFACTURING COMPANY, et al.,
Defendants-Appellants, Cross-Appellees.
————
Argued May 16, 2019
Decided August 8, 2019
Rehearing En Banc Denied September 6, 2019
————
St. Eve, Circuit Judge.
This case is about an on-and-off, decades-long effort
to stop an Indiana steel mill’s pollution. Valbruna
Slater Steel purchased the mill (or the “site”) in 2004,
and it quickly got to work on needed, but costly, cleanup efforts. Valbruna then sued Joslyn Manufacturing
Company, which last operated the site in 1981, to
recover costs under both the Comprehensive Environmental Response, Compensation, and Liability Act
(CERCLA) and Indiana’s Environmental Legal Actions
statute (ELA).
Joslyn’s fault is undisputed; its operation of the site
started the pollution problems. But Joslyn defended
itself in the district court on claim-preclusion, statute-

2a
of-limitations, and contribution grounds. The district
court decided the CERCLA claim was not precluded,
but the ELA claim was. It also decided the suit was
timely. The district court, however, did impose equitable contribution on Valbruna, requiring it to pay for a
quarter of the past and future costs incurred during
the site’s cleanup. Joslyn appeals and Valbruna crossappeals. We affirm across the board.
I. Background
Joslyn,1 a steel manufacturer, owned and operated
the site, located in Fort Wayne, Indiana, from 1928 to
1981. Joslyn’s operation polluted nearby soil, sludge,
and, as a result, ground-water. In 1981, Joslyn sold the
site to Slater Steels Corporation through an Asset Purchase Agreement. After acquiring the site, Slater set
to work with cleanup efforts. Slater did so, the record
suggests, upon pressure from regulators and to
bring the site into compliance with the Resource
Conservation and Recovery Act of 1976. See 42 U.S.C.
§ 6901 et seq.
From 1981 to 1987, Slater excavated sludge and contaminated soil from two areas on the site: an impoundment area and a waste pile. The excavation, however,
did not remove all contaminates. In 1988, Slater signed
an agreement with the EPA, which permitted monitoring of the site until the Indiana Department of Environmental Management (IDEM) could certify the closure of the polluted areas. In 1991, Slater undertook
more work, this time capping the excavated impoundment area with a concrete lid to prevent runoff. Slater
1

We refer to the parties as Joslyn, Valbruna, and Slater. The
parties’ briefs identify the particular affiliates or corporate entities that were involved in the various transactions and suits, but
those corporate distinctions do not matter for our purposes.

3a
also implemented a ground-water detection program.
IDEM then issued a certification of completion for the
work Slater had started, though IDEM recognized
that more work was ongoing and necessary at the site.
Slater repeatedly tried to get Joslyn to pay for the
cleanup work it had done, to no avail. In 1988 and again
in 1994, Slater sent Joslyn a demand letter explaining
that Joslyn was responsible for the cleanup under
their agreement. Joslyn disagreed, telling Slater that
it had assumed responsibility for the costs. Slater escalated its demand in 1999. With another demand letter,
it sought costs not just per the agreement, but under
CERCLA and the ELA statute as well. Joslyn again
declined to pay for the cleanup.
The dispute headed to court. In 2000, Slater sued
Joslyn in an Indiana state court seeking (1) indemnification under the agreement and (2) costs under the
ELA statute. Slater did not bring a CERCLA claim in
its state-court suit—nor could it. Federal courts have
exclusive jurisdiction over CERCLA claims. 42 U.S.C.
§ 9613(b).
Slater’s state-law claims ultimately failed. First, in
2001, the trial court ruled that the ELA statute—
enacted in 1998—could not be retroactively enforced.
(Later, in different litigation, the Indiana Supreme
Court supported retroactive application. See Cooper
Indus., LLC v. City of South Bend, 899 N.E.2d 1274,
1285 (Ind. 2009). But for Slater’s purposes, its ELA
claim was over.) Then, in 2003, Slater filed for bankruptcy and stopped cooperating in discovery. When it
failed to produce its environmental manager for a deposition, Joslyn moved to dismiss for want of prosecution
under Indiana Trial Rule 41(E). The trial court granted that motion in 2005.

4a
In 2004, with the state suit pending, Valbruna purchased the site at a competitive bankruptcy auction.
It paid $6.4 million. Before finalizing the deal, and
apparently recognizing the ongoing pollution hazards,
Valbruna negotiated with IDEM. Valbruna and IDEM
agreed to a Prospective Purchase Agreement (PPA).
Under the PPA, both parties agreed to put down
$500,000 each, the total of which would go toward cleanup if Valbruna won the auction.
After Valbruna won the auction, its purchase contract
granted Valbruna the right to intervene in Slater’s pending state-court suit. Valbruna never did so. Valbruna,
instead, set out to perform more cleanup in 2005, as
the PPA required. IDEM approved Valbruna’s cleanup
plan, but the plan budgeted to (and ultimately would)
deplete more than the $500,000 Valbruna set aside. In
2007, with work ongoing, IDEM again reviewed the
site, and ordered even more cleanup.
Upset with how much the cleanup cost, Valbruna
filed this suit in 2010 against Joslyn in federal court.
Valbruna claimed cost recovery pursuant to § 107 of
CERCLA, 42 U.S.C. § 9607(a), and the ELA statute,
Ind. Code §§ 13-30-9-2–3. Valbruna also sought a declaratory judgment regarding Joslyn’s liability. Joslyn
counterclaimed for contribution under § 113(f). 42 U.S.C.
§ 9613(f). Valbruna did not cause the pollution, Joslyn
admitted, but under § 107(a)(1), a facility’s owner, like
Valbruna, may be liable for cleanup costs.
Joslyn moved to dismiss on claim-preclusion grounds,
citing the earlier state-court suit between it and Slater.
The district court converted that motion to one for summary judgment. It granted the motion with respect to
the ELA claim, concluding that Slater and Valbruna
were in privity, but it denied the motion on the CERCLA
claim. The court explained, in a revised ruling, that

5a
because CERCLA is an exclusively federal claim there
could be no claim preclusion based on the failure to
raise it in an earlier state-court suit.
Joslyn then tried to defeat the CERCLA claim on a
different ground. It filed a motion for summary judgment arguing that the claim was time-barred because
it was brought more than six years after the start of
“remedial action”—Slater’s earlier cleanup, according
to Joslyn. 42 U.S.C. § 9613(g)(2). The district court disagreed. In a thorough opinion, the district court decided,
as a matter of law, that Slater’s cleanup was “removal”
and therefore the relevant limitations period had
not tolled. Compare id. § 9613(g)(2)(A) (time limits for
removal actions) with (B) (time limits for remedial
actions). Joslyn attempted to amend its answer, adding
the claim-preclusion and statute-of-limitations defenses
for which it had already filed summary-judgment
motions. The magistrate judge granted Joslyn leave to
amend but struck the defenses, concluding that the
district court’s earlier decisions settled that those
defenses did not apply as a matter of law. Joslyn asked
for reconsideration, which the magistrate judge denied.
Joslyn was undeterred. It filed another motion for
summary judgment, without first seeking leave as the
court had told it to. Again, Joslyn argued its alreadystricken claim-preclusion and statute-of-limitations
defenses. Valbruna then sought a declaration that
Joslyn was liable under § 107(a) of CERCLA. The
district court denied Joslyn’s successive motion and
granted Valbruna’s motion, finding that there was no
question that Joslyn, as the initial polluter, was liable.
That left only two issues: damages and contribution
under CERCLA. The case went to a bench trial in two
phases on those issues. As for damages, after trial the
district court concluded that Valbruna had incurred

6a
$2,029,871.09 in costs while remediating the site. It
then reduced that amount by $500,000, believing that
it would be unfair for Valbruna to recover that sum
twice, as it had been contemplated in Valbruna’s purchase price and the PPA. As for contribution, the district court apportioned liability for past and future
costs: 75% for Joslyn, 25% for Valbruna. The district
court justified Valbruna’s share by citing its assumed
risk in purchasing an old metal-production site with
well-known pollution problems.
Joslyn appealed and Valbruna cross-appealed.
II. Discussion
The parties on appeal continue their dispute over
who should pay what for the site’s costly clean up. The
answer turns on issues of preclusion, timeliness, and
the district court’s discretion in equitably allocating
costs. We will address those issues and the parties’
appeals in turn.
A. Joslyn’s Appeal
Joslyn argues two reasons why Valbruna’s costrecovery claim under CERCLA should fail: it is precluded by the earlier state-court suit and it is untimely.
Before addressing those arguments, we must pass a
procedural hurdle.
This is how the litigation over Joslyn’s defenses should
have played out: Joslyn timely pleaded its preclusion
and limitations defenses; the parties cross-moved at
summary judgment on those defenses; and the district
court, concluding, as it did, that the defenses did not
apply as a matter of law, granted Valbruna summary
judgment on the defenses. No doubt we could review
that (hypothetical) grant of summary judgment after
the final judgment. Bastian v. Petren Res. Corp., 892

7a
F.2d 680, 683 (7th Cir. 1990). But things played out
differently. Joslyn did not plead the defenses before moving for summary judgment on them, and so Valbruna
never cross-moved on them (it just opposed Joslyn’s
motion). As a result, Joslyn now wants us to review
the district court’s denial of its motions for summary
judgment on the preclusion and limitations defenses.
That request gives us pause, though, because we do
not typically review summary-judgment denials. After
a case goes to trial, as happened here, an earlier summary-judgment denial is “old news.” Kreg Therapeutics,
Inc. v. VitalGo, Inc., 919 F.3d 405, 416 (7th Cir. 2019);
see also Ortiz v. Jordan, 562 U.S. 180, 184, 131 S.Ct.
884, 178 L.Ed.2d 703 (2011). We have noted a possible
exception to that rule of non-reviewability, for “purely
legal issues.” Mimms v. CVS Pharmacy, Inc., 889 F.3d
865, 869 (7th Cir. 2018); see also Carmody v. Bd. of
Trustees of Univ. of Illinois, 893 F.3d 397, 404 (7th Cir.
2018) (discussing the “controversial exception”); Lawson
v. Sun Microsystems, Inc., 791 F.3d 754, 761 n.2 (7th Cir.
2015) (noting “a split of authority on this point”). This
case arguably fits into this possible exception. The
facts are undisputed and the district court’s preclusion
and limitations decisions were as a matter of law.
We, however, need not decide as much to hear Joslyn’s
appeal. Despite Joslyn’s focus on the summary-judgment denials, Joslyn’s defenses were finally put to bed
by a different order—the order striking the defenses
from the amended answer.2 The decision to strike, which
incorporated the earlier summary-judgment reasoning, was a dispositive order on the defenses, which we
2

This is true despite Joslyn’s later attempt to resuscitate the
defenses with another summary-judgment motion, which, again,
it filed without leave from the court.

8a
can review. See Heraeus Kulzer, GmbH v. Biomet, Inc.,
881 F.3d 550, 563 (7th Cir. 2018). Because the defenses
failed in the district court as a matter of law, our
review is de novo. Lopez-Aguilar v. Marion Cty. Sheriff’s
Dep’t, 924 F.3d 375, 384 (7th Cir. 2019).
1. CERCLA Claim Preclusion
Claim preclusion, or res judicata, generally bars the
relitigation of claims that were brought, or could have
been brought, in an earlier suit that has reached final
judgment. The district court here concluded that the
state-court suit did not preclude the CERCLA claim.
To decide the preclusive effect of a state-court judgment, and in the interest of affording full faith and
credit to state-court judgments, 28 U.S.C. § 1738, we
look to the law of the state where the judgment occurred.
Mains v. Citibank, N.A., 852 F.3d 669, 675 (7th Cir.
2017). That state here is Indiana.
Under Indiana law, the following four elements must
be met for claim preclusion to apply:
(1) the former judgment must have been rendered
by a court of competent jurisdiction; (2) the former
judgment must have been rendered on the merits;
(3) the matter now in issue was, or could have been,
determined in the prior action; and (4) the controversy adjudicated in the former action must have
been between the parties to the present suit or their
privies.
Freels v. Koches, 94 N.E.3d 339, 342 (Ind. Ct. App.
2018). We begin and end with the first element, regarding jurisdictional competency.
Cost-recovery actions under CERCLA, as we noted
earlier, can only be brought in federal court. 42 U.S.C.
§ 9613(b). The question, then, is whether an Indiana

9a
court has jurisdictional competency over an exclusively
federal claim. Indiana courts have not answered the
question—nor will they. State courts do not hear exclusively federal claims, by definition, and so the question
will not come before them.3 Matsushita Elec. Indus.
Co. v. Epstein, 516 U.S. 367, 375, 116 S.Ct. 873, 134
L.Ed.2d 6 (1996); Wright & Miller, 18B Fed. Prac. &
Proc. § 4470.1 (2d ed. 2019). So our task is to answer
the question “in the same way (as nearly as we can
tell) as the state’s highest court would.” Newman v.
Metro. Life Ins. Co., 885 F.3d 992, 1000 (7th Cir. 2018).
The starting point is Marrese v. Am. Acad. of Orthopaedic Surgeons, 470 U.S. 373, 105 S.Ct. 1327, 84
L.Ed.2d 274 (1985). In Marrese, the Supreme Court
held that in deciding whether res judicata bars an
exclusively federal claim (there, a Sherman Act claim),
federal courts must look to state law. En route to that
holding, the Court noted that, under most state law,
“claim preclusion generally does not apply where ‘[t]he
plaintiff was unable to rely on a certain theory of the
case or to seek a certain remedy because of the limitations on the subject matter jurisdiction of the courts.’”
Id. at 382, 105 S.Ct. 1327 (quoting Restatement (Second)
of Judgments § 26(1)(c) (1982)). The Court elaborated,
if “state preclusion law includes this requirement of
prior jurisdictional competency, which is generally true,
a state judgment will not have claim preclusive effect
on a cause of action within the exclusive jurisdiction of
the federal courts.” Id. (emphasis in original). Based
on this general rule, the Court saw no need to carve
out an exception to the Full Faith and Credit statute,
3

With one exception: a state supreme court could, of course,
answer the question if we were to certify it. See Ind. R. of App. P.
64. Joslyn, however, expressly disavowed any request to certify
the question to the Supreme Court of Indiana at oral argument.

10a
and the deference to state judgments that it requires,
for exclusively federal claims that are brought after a
state judgment. Such claims will usually not be precluded under state law, the Court reasoned. Id. at
382–83, 105 S.Ct. 1327 & n.3.
The Restatement (Second) of Judgments § 26, which
Marrese quotes, is equally explicit about the general
rule. It states: “When the plaintiff brings an action in
the state court, and judgment is rendered for the
defendant, the plaintiff is not barred from an action in
the federal court in which he may press his claim
against the same defendant under the federal statute.”
The Restatement then offers Illustration 2, which
Marrese also cites, 470 U.S. at 383, 105 S.Ct. 1327, and
it offers clarification by hypothetical:
A Co. brings an action against B Co. in a state
court under a state antitrust law and loses on the
merits. It then commences an action in a federal
court upon the same facts, charging violations of the
federal antitrust laws, of which the federal courts
have exclusive jurisdiction. The second action is
not barred.
Restatement (Second) of Judgments § 26(c)(1). Federal
courts make the same point. Following Marrese and
the Restatement, they recognize that if state law
requires jurisdictional competency for res judicata purposes, state judgments do not preclude exclusively federal claims. See United States v. B.H., 456 F.3d 813,
817 (8th Cir. 2006) (Iowa law); In re Lease Oil Antitrust Litig. (No. II), 200 F.3d 317, 320–21 (5th Cir.
2000) (Alabama law); Valley Disposal, Inc. v. Cent.
Vermont Solid Waste Mgmt. Dist., 31 F.3d 89, 98 (2d
Cir. 1994) (Vermont law); Pension Tr. Fund For Operating Eng’rs v. Triple A Mach. Shop, Inc., 942 F.2d
1457, 1461 (9th Cir. 1991) (California law); Gargallo v.

11a
Merrill Lynch, Pierce, Fenner & Smith, Inc., 918 F.2d
658, 662–64 (6th Cir. 1990) (Ohio law); McCarter v.
Mitcham, 883 F.2d 196, 199–200 (3d Cir. 1989)
(Pennsylvania law); Cullen v. Margiotta, 811 F.2d 698,
732 (2d Cir. 1987) (New York law), overruled on other
grounds by Agency Holding Corp. v. Malley-Duff &
Assocs., Inc., 483 U.S. 143, 107 S.Ct. 2759, 97 L.Ed.2d
121 (1987).
Would the Supreme Court of Indiana apply the general rule that Marrese describes, the Restatement
adopts, and federal courts have ascribed to other states’
law? We hold that it would. Indiana’s res judicata
elements include the jurisdictional-competency requirement, which was the basis for Marrese’s general rule.
More, the Supreme Court of Indiana has already cited
Marrese’s general rule approvingly.
Green v. Hendrickson Publishers, Inc., 770 N.E.2d
784, 791 (Ind. 2002), addressed an exclusively federal
counterclaim under copyright law. 42 U.S.C. § 1338(a).
It explained:
[W]e agree [with the lower court] that claim preclusion could prevent the Greens from presenting
their [counter] claim in a separate suit. We do not
agree that that would be the case if the state court
had no jurisdiction over the Greens’ counterclaim.
Although it is true that the subject matter of the
Greens’ counterclaim and the as yet unfiled federal
copyright claim are logically related and presumably arise out of the same “transaction or occurrence,” if the state court had no jurisdiction over
the subject matter of the counterclaim, it cannot
be “compulsory.”
770 N.E.2d at 791 n.2 (citing Marrese, 470 U.S. at 382,
105 S.Ct. 1327, quoting in turn Restatement (Second) of

12a
Judgments § 26(1)(c)) (emphasis added). This is the rule
Marrese describes: if there is no state-court jurisdiction to hear an exclusively federal claim, there is no
claim preclusion.
Joslyn submits that Green’s adoption of the rule
was dicta. But we cannot ignore it. Dicta from a state
supreme court is good evidence of how the court would
decide an issue it has not yet directly encountered.
Allen v. Transamerica Ins. Co., 128 F.3d 462, 467 (7th
Cir. 1997). That is especially true in this case. As we
noted earlier, state courts have no “occasion” to answer
the question we face. Marrese, 470 U.S. at 381–82, 105
S.Ct. 1327. Absent certification (which Joslyn disavows), dicta offers the clearest insight into how the
court would rule here.
Plus, Green’s approval of Marrese and Restatement
§ 26 was considered. Green concerned, in part, whether
a copyright counterclaim was “compulsory” such that
it had to be brought in the state-court action. This question is intertwined with preclusion, as Green recognized, because if a claim is compulsory it is later precluded if not raised. See also Publicis Commc’n v. True
N. Commc’ns Inc., 132 F.3d 363, 365 (7th Cir. 1997).
Green dropped the footnote approving Marrese and
Restatement § 26 to correct the Indiana appellate court’s
misunderstanding of these related issues. See 770
N.E.2d at 791 n.2. If, as Green held, a federal counterclaim was not exclusively federal, it could be compulsory in state court and later precluded if not raised.
See id. at 791–92 & n.2. It follows, as Green noted, that
if the counterclaim was exclusively federal—like the
CERCLA claim here—it is not compulsory and not
subject to claim preclusion. See id. at 791 n.2.
Joslyn also attempts to distinguish Green on procedural grounds, noting that it involved a defendant’s

13a
counterclaim and not, as here, a plaintiff’s claim. That
distinction does not undermine Green’s persuasiveness. Green remains Indiana’s only treatment of
whether earlier state-court judgments bar exclusively
federal claims. It indicates that they cannot be claim
precluded.
Green notwithstanding, Joslyn submits that the
Supreme Court of Indiana would in fact find res judicata here because Indiana, like most states, disapproves
of claim splitting. See, e.g., Erie Ins. Co. v. George, 681
N.E.2d 183, 189–90 (Ind. 1997). Marrese considered a
similar problem and found it unavailing. Despite the
general prohibition on claim splitting, the Court explained, “the jurisdictional competency requirement”
means that “subsequent attempts to secure relief in
federal court” are permitted “if the state court lacked
jurisdiction over the federal statutory claim.” 470 U.S.
at 383 n.3, 105 S.Ct. 1327. Restatement § 26 also
allows for the tension between possible claim splitting
and the rule against claim preclusion in these circumstances. It makes clear that the rule is an “exception”
to the general prohibition on claim splitting.
Still, Joslyn insists, a decision that claims are not
precluded based only on their federal exclusivity will
lead to gamesmanship. Joslyn theorizes that plaintiffs’
lawyers will bring state-law claims without their exclusively federal counterparts (like securities or antitrust
claims) in state court, see how that litigation goes, and
if it goes poorly, switch gears and bring federal claims
in federal court. We are not so worried. For one, an
overt practice of claim splitting amounts to bad-faith
litigation. For another, other statutory and doctrinal
bars should serve to prevent such gamesmanship.
Federal statutes of limitations, for example, will not
toll simply because a state-law claim was filed. See In

14a
re Copper Antitrust Litig., 436 F.3d 782, 793–94 (7th
Cir. 2006). And issue preclusion, or collateral estoppel,
prohibits plaintiffs from relitigating facts, even if not
claims, that the state court already resolved.
Joslyn makes one more argument worth addressing.
Whatever Marrese thought “jurisdictional competency,”
means, Joslyn says, Indiana interprets it differently.
It cites Indiana cases that describe jurisdictional
competence as meaning that the earlier suit “was
based on proper jurisdiction.” Reed v. State, 856 N.E.2d
1189, 1194 (Ind. 2006). That generic description is
surely one aspect of jurisdictional competency. But it
does not foreclose a broader meaning in a different
context—as Marrese, Restatement § 26, and many
other courts have understood it in the context we face.
The only Indiana case to touch on that context was
Green. We think it clear that Indiana’s highest court
would continue with the course Green mapped and
find no jurisdictional competency here.
2. CERCLA’s Statute of Limitations
Joslyn’s second defense is a timeliness one. The
applicable limitations period for CERCLA cost-recovery
claims depends on whether, and when, “removal” or
“remediation” occurred. See 42 U.S.C § 9613(g)(2)(A)–
(B). For removal actions, the time to file suit expires
three years after the removal is complete. For remedial action, however, the time expires six years after
the remedial action’s initiation. The parties agree
Valbruna started remedial action in 2005. The question
is whether there was earlier remedial action—namely,
in the 1980s or in 1991, when Slater performed cleanup. Joslyn thinks that cleanup was remedial, and thus,
this action is untimely. Id. § 9613(g)(2)(B). Valbruna
contends Slater’s actions were only removals, and so

15a
this suit, filed within six years of the remediation that
began in 2005, is timely. Id.
We agree with Valbruna. The parties do not dispute
the underlying facts, and therefore we can decide how
to characterize the earlier cleanups—as removal or
remediation—as a matter of law. See New York v. Next
Millenium Realty, LLC, 732 F.3d 117, 126 (2d Cir.
2013); United States v. Navistar Int’l Transp. Corp.,
152 F.3d 702, 707 (7th Cir. 1998).
Removal and remediation are terms of art under
CERCLA. CERCLA defines a removal as “the cleanup
or removal of released hazardous substances from the
environments,” and it defines remedial actions as “those
actions consistent with permanent remedy taken
instead of or in addition to removal actions.” 42 U.S.C.
§ 9601(23), (24). In clearer terms, removal generally
“refers to a short-term action taken to halt risks posed
by hazardous wastes immediately.” Frey v. E.P.A., 403
F.3d 828, 835 (7th Cir. 2005). Remedial actions “are
longer term, more permanent responses.” Bernstein v.
Bankert, 733 F.3d 190, 201 n.5 (7th Cir. 2013). Filling
in those definitions further, a removal action is usually
one that: is designed as an interim or partial fix; performed in response to an immediate threat; is short in
length; does not address the entire problem; and/or
does not address the root of the problem. On the other
hand, remedial action is generally: designed as a permanent or complete fix; performed not in response to
an imminent environmental threat; lengthy; designed
to address the root of the problem; and/or designed to
address the entire problem. See 42 U.S.C. §§ 9601(23),
(24); Next Millenium Realty, LLC, 732 F.3d at 127;
United States v. W.R. Grace & Co., 429 F.3d 1224,
1244–45 (9th Cir. 2005); Colorado v. Sunoco, Inc., 337
F.3d 1233, 1240 (10th Cir. 2003). Given the potential

16a
for overlap between the two characterizations, courts
decide the removal-or-remediation question on a caseby-case basis. No one characteristic of the cleanup is
usually dispositive. See Pub. Serv. Co. of Colorado v.
Gates Rubber Co., 175 F.3d 1177, 1182 (10th Cir. 1999)
(“Elements of either response action may overlap and
semantics often obscure the actual nature of the
cleanup performed.”).
Here, neither the 1980s cleanup nor the 1991 work
constituted remedial action. In the 1980s, Slater excavated sludge and soil from just two areas of the site (a
former surface impoundment and waste pile). That
was far from a comprehensive or permanent action. It
was a temporary solution, covering only a part of the
plant’s pollution causes. Slater also performed the
work in response to the threat the waste posed to
nearby water sources, which was of concern to regulators. As for the 1991 work, Slater filled the excavated
area at the surface impoundment area with clean soil.
It then constructed a concrete cap for that area, and
Slater implemented a ground-water detection monitoring program. Again, this was a limited fix: it focused
only the impoundment lot. And the capping, too, was
performed in response to an impending environmental
threat, as regulators highlighted for Slater.
Joslyn makes a few points in response. It argues,
first, that the length of the 1980s cleanup—nearly eight
years—means it was a remedial, not removal, action.
The length of a cleanup is not dispositive, however,
and here the circumstances and limitations of the excavation outweigh the length of time it took to complete
the task. See Vill. of Milford v. K-H Holding Corp., 390
F.3d 926, 934 (6th Cir. 2004). Joslyn also contends that
neither of the cleanups was in response to an imminent
and serious environmental hazard. Even so, the evi-

17a
dent limitations of the earlier cleanups, both in terms
of space and the amount of pollution, do not persuade
us that they were remedial under CERCLA.
Joslyn argues further that the work Slater performed was “consistent” with remediation. Indeed,
Joslyn argues, Slater excavated the sludge and installed
the cap as a part of the “Voluntary Remediation Plan”
it had with IDEM. But we, like the district court, see
little merit in this argument. As the district court put
it, “every removal action is consistent with every remedial reaction in that all are attempts to alleviate environmental concerns.” The key considerations here are
the circumstances and purpose of Slater’s work, and
those considerations show that the work was not remedial.
Joslyn, finally, sets aside the 1980s work and focuses
on the 1991 capping. What, Joslyn asks, could be more
permanent than a concrete cap? And, as Joslyn points
out, permanent “confinement” of pollutants is one of
CERCLA’s examples for what may constitute remedial
action. 42 U.S.C. § 9601(24); see also Navistar Int’l
Transp., 152 F.3d at 711 (assuming, based on parties’
concessions, that a clay cap was a part of a remediation
effort). Here, however, Joslyn’s argument prioritizes
form (the cap’s makeup) over function (the cap’s purpose and effect). The concrete cap covered just one
area, and not even Joslyn seriously contends that it was
meant to substantially resolve the bulk of the site’s
ongoing pollution problems. So while the fix may have
been permanent, it was so far from comprehensive
that we cannot say it was a remedial action.4

4

Because we affirm on this ground, we need not delve into the
district court’s alternative reason for finding the CERCLA claim
timely: that even if the earlier cleanups were remedial, they were

18a
B. Valbruna’s Cross-Appeal
We turn now to Valbruna’s cross-appeal. Valbruna
challenges two of the district court’s decisions: first,
the decision that Valbruna’s ELA claim was precluded
by the earlier state-court suit, and second, the decision
to reduce the costs by $500,000 and then hold
Valbruna liable for 25%.
1. ELA Claim Preclusion
As noted earlier, Indiana law requires privity between
claimants for res judicata to apply. E.g., Freels, 94
N.E.3d at 342. The district court concluded that
Valbruna was a privy of Slater, which had filed the
state-court suit over cleanup costs and from which
Valbruna purchased the site. Valbruna takes issue
only with this privity decision on appeal. The district
court granted Joslyn summary judgment on the ELA
claim, thus our review is de novo. Mollet v. City of
Greenfield, 926 F.3d 894, 896 (7th Cir. 2019).
Under Indiana law, a privy includes “one who after
rendition of [a] judgment has acquired an interest in
the subject matter affected by the judgment.” Becker
v. State, 992 N.E.2d 697, 700–01 (Ind. 2013); Webb v.
Yeager, 52 N.E.3d 30, 40 (Ind. Ct. App. 2016). The postjudgment acquisition may occur “through or under one
of the parties, as by inheritance, succession, or purseparate “operable units” from Valbruna’s current cleanup. We
note that we appear to have recognized that ground before. See
Bernstein v. Bankert, 702 F.3d 964, 984 (7th Cir. 2012), amended
and superseded on reh’g, 733 F.3d 190 (7th Cir. 2013). But other
circuit courts have rejected the idea that there can be multiple
removal or remediation actions at a given site. See Sunoco, Inc.,
337 F.3d at 1241; Kelley v. E.I. DuPont de Nemours & Co., 17 F.3d
836, 843 (6th Cir. 1994). We leave for another day whether our
decision in Bernstein represents a circuit split on the question.

19a
chase.” Hockett v. Breunig, 526 N.E.2d 995, 1000 (Ind.
Ct. App. 1988). And an “entity does not have to control
a prior action . . . for privity to exist.” Becker, 992
N.E.2d at 700–01.
Whether Valbruna was in privity with Slater turns
on the “subject matter affected” by the earlier judgment.
That subject matter was the site and the costs Slater
sought to recover. Slater, the site’s owner, brought the
state-court suit to collect under the ELA statute the
costs incurred for cleanup at the site. After Valbruna’s
purchase, Valbruna had the right to intervene in the
suit and similarly pursue those costs. With the subject
matter clear, so too is Valbruna’s privity with Slater.
By purchasing the site it “acquired an interest” in both
the site and the potential cost recovery. Id. at 701.
Valbruna’s counterarguments miss the mark. It
argues, for example, that there was no privity because
at the time of its purchase it had not yet incurred any
cleanup related costs. Privity, however, exists when
one “acquire[s] an interest in the subject matter affected
by the judgment.” Webb, 52 N.E.3d at 40. Valbruna
acquired an interest in the thing over which the statecourt suit was fought. That is enough for privity under
Indiana law.
Valbruna also advances a different conception of the
relevant subject matter. It submits that the subject
matter was not the property, or even the costs sought,
but instead the Asset Purchase Agreement between
Joslyn and Slater. This conception is too narrow. The
agreement was a part of the state-court suit, to be sure,
but the claims there, like the ones here, were brought
by the site’s current owner to collect costs owed for
Joslyn’s operation of the site, including through the
ELA statute. Valbruna gives us no reason to ignore

20a
those salient features of the state-court action and
instead focus on just the agreement.
2. Allocation of Costs
That leaves the district court’s equitable allocation
of costs. CERCLA gives district courts the discretion
not only to decide how to ultimately divvy cleanup
costs, “but it also grants the court the authority to
decide which equitable factors will inform its decision
in a given case.” NCR Corp. v. George A. Whiting Paper
Co., 768 F.3d 682, 695 (7th Cir. 2014).
Courts usually look to the “Gore factors”—named
after then-Congressman Al Gore—to decide allocation.
The Gore factors include, among other things, the parties’ respective fault for the pollution, the degree of
toxicity of the pollution, and the care exercised by the
respective parties. Envtl. Transp. Sys., Inc. v. ENSCO,
Inc., 969 F.2d 503, 508 (7th Cir. 1992). But these
factors are neither binding nor exhaustive, and courts
may “consider any factors appropriate to balance the
equities in the totality of the circumstances.” Id. at
509. We will not reverse unless the district court’s decision about which factors apply was irrational. NCR
Corp., 768 F.3d at 700.
Valbruna first takes issue with the district court’s
decision to reduce the amount it could recover, more
than $2,000,000, by $500,000. It did so believing that
Valbruna had accounted for at least $500,000 in cleanup costs before purchasing the site, as evidenced by
the PPA with IDEM. Thus, reasoned the district court,
not reducing the recovery amount by that sum would
sanction “double recovery” for Valbruna, which would
be inequitable. That decision was rational.
Valbruna concedes that a district court can consider
the potential windfall for a plaintiff that stands to

21a
collect more than it has actually lost. But the problem,
Valbruna says, is that there was “no evidence” of a
potential windfall. There may have been no direct evidence of the windfall, like a cost-based comparison, but
that is not a requirement under CERCLA. The district
court could, as it did, reasonably infer the potential
windfall from the existing record. It is not a hard inference to draw: if a rational buyer pursues a piece of
property knowing that it will have to spend X for
cleanup, it will discount the potential value of the property by X and accordingly reduce its purchase price by
X. “No sensible person would pay as much for a property with a known liability as for one without, whether
the price expressly discounted for the cleanup or not.”
W. Properties Serv. Corp. v. Shell Oil Co., 358 F.3d
678, 691 (9th Cir. 2004), abrogation on other grounds
recognized in Kotrous v. Goss-Jewett Co. of N. Cal., 523
F.3d 924, 931 (9th Cir. 2008). So from the PPA, which
Valbruna, a sophisticated, experienced, well-lawyered
manufacturer, entered into, the district court could
rationally infer that Valbruna considered the $500,000
PPA payment as “functionally part of the price.”
Valbruna also cites Trinity Indus., Inc. v. Greenlease
Holding Co., 903 F.3d 333, 362 (3d Cir. 2018), but that
case was different. In Trinity Indus., the Third Circuit
vacated the district court’s imposition of a 10% equitable deduction from the recoverable costs because, as a
result of the cleanup, the property’s value increased.
The Third Circuit recognized the valid equitable concern behind the deduction (to prevent windfall recoveries), yet it held that without evidence of how much
the property’s value had increased the deduction lacked
evidentiary support. Here, however, the district court
did not peg the deduction ad hoc without evidence.
Valbruna’s prepurchase decision to put the $500,000
in escrow suggests strongly that Valbruna considered

22a
it (a) to be a necessary cleanup-related liability and (b)
factored it into the purchase price accordingly. More
evidence would have been preferable, but the district
court’s decision was rational.
The second challenge Valbruna makes is to the district court’s decision to hold Valbruna accountable for
25% of past and future costs. Valbruna tells us that
this number is unprecedented, and that no court has
ever held a no-fault owner to more than 10% of the costs.
We agree that the 25% imposition is striking, but we
disagree that the district court exceeded its discretion.
The district court’s decision was based on the evidence
and reasoned. The court cited the fact that Valbruna
clearly understood the site’s serious pollution problems
before deciding to purchase it—so caveat emptor.
Valbruna offers no reason why that consideration was
inappropriate. There was also evidence that Valbruna
paid far less than the asking price, $6.4 million compared to $20 million, and far less than the amount for
which it ultimately insured the site, around $80 million. So, again, the district court was rationally concerned about a windfall for Valbruna. The district court’s
25% imposition on a no-fault owner reached the limits
of its discretion, but we see no abuse of that discretion
based on the facts of this case.
AFFIRMED

23a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
FORT WAYNE DIVISION
————
Case No. 1:10-CV-044-JD
————
VALBRUNA SLATER STEEL CORPORATION and
FORT WAYNE STEEL CORPORATION,
Plaintiffs/Counter Defendants,
v.
JOSLYN MANUFACTURING COMPANY f/k/a
JOSLYN CORPORATION f/k/a JOSLYN MANUFACTURING
& SUPPLY COMPANY, JOSLYN CORPORATION f/k/a
JOSLYN HOLDING COMPANY and
JOSLYN MANUFACTURING COMPANY, LLC,
Defendants/Counter Plaintiffs.
————
ENTRY OF FINAL JUDGMENT
Pursuant to Fed. R. Civ. P. 58, the Court now enters
final judgment in favor of Plaintiffs Valbruna Slater
Steel Corporation and Fort Wayne Steel Corporation
(collectively, “Plaintiffs”) and against Defendants Joslyn
Manufacturing Company f/k/a Joslyn Corporation f/k/a
Joslyn Manufacturing & Supply Company, Joslyn Corporation f/k/a Joslyn Holding Company, and Joslyn
Manufacturing Company, LLC (collectively, “Joslyn”)
in accordance with the Opinions and Orders previously issued by the Court and in the amounts reflected
below (see 4/11/11 Opinion and Order (docket # 35);
12/4/15 Opinion and Order (docket # 124); 5/12/17

24a
Opinion and Order (docket # 175); 1/16/18 Opinion and
Order (docket # 182); 5/22/18 Opinion and Order
(docket # 192); 6/11/18 Stipulation on Fees/Expenses
(docket # 195)):

SO ORDERED.
ENTERED: July 20, 2018
/s/ JON E. DEGUILIO
Judge
United States District Court

25a
APPENDIX C
UNITED STATES DISTRICT COURT,
N.D. INDIANA, FORT WAYNE DIVISION
————
Cause No. 1:10-CV-44
————
VALBRUNA SLATER STEEL CORPORATION
and FORT WAYNE STEEL CORPORATION,
Plaintiffs,
v.
JOSLYN MANUFACTURING CO.,
f/k/a JOSLYN CORPORATION f/k/a
JOSLYN MANUFACTURING & SUPPLY
COMPANY; JOSLYN CORPORATION,
f/k/a JOSLYN HOLDING COMPANY; and
JOSLYN MANUFACTURING COMPANY, LLC,
Defendants.
————
Signed 06/05/2013
————
OPINION AND ORDER
Roger B. Cosbey, United States Magistrate Judge
This matter is before the Court on Defendant Joslyn
Manufacturing Company, LLC’s (“Joslyn”) Motion for
Leave to File Counterclaim. (Docket # 52.) Plaintiffs
object to the motion to the extent that the proposed
Amended Answer includes the affirmative defenses of
claim preclusion and statute of limitations—both previously rejected by the Court—and thus seek to strike
them from the proposed Amended Answer. (Docket

26a
# 54 at 2 n.1.) The Court heard argument on the
motions on May 28, 2013. (Docket # 57.)
For the following reasons, Plaintiffs’ motion to strike
the claim preclusion and statute of limitations defenses
will be GRANTED. As such, Joslyn’s Motion for Leave
to File Counterclaim will be GRANTED, but these
affirmative defenses will be stricken from the Amended
Answer.
A. Factual and Procedural Background
Plaintiffs Valbruna Slater Steel Corporation and
Fort Wayne Steel Corporation (collectively, “Valbruna”)
brought this action under the Comprehensive Environmental Response Compensation and Liability Act
(“CERCLA”), 42 U.S.C. § 9607(a), and Indiana’s Environmental Legal Action Statute (“ELA”), Ind. Code
§§ 13-30-9-1 et seq., against the Joslyn Defendants in
February 2010.1 (Docket # 1.) Valbruna seeks contribution for costs incurred in cleaning up a contaminated site Joslyn previously owned and a declaratory
judgment declaring Joslyn liable for future costs and
expenses of responding to hazardous substances at the
site. (See Compl. ¶¶ 21-38.)
In May 2010, Joslyn moved to dismiss the complaint
for failure to state a claim, arguing that all three of
Valbruna’s claims were precluded by res judicata as
its predecessor in interest had previously brought an
ELA action against Joslyn in state court, which was
dismissed with prejudice. (Docket # 19.) The motion
was converted into a motion for summary judgment
(Docket # 25), which the Court subsequently denied as
1

Because Joslyn Manufacturing and Supply Company ultimately merged into the present company, Joslyn Manufacturing
Company, LLC (Docket # 20-8 at ¶ 2), the Court will refer to the
Joslyn Defendants as simply “Joslyn.”

27a
to the CERCLA count and the related request for a
declaratory judgment, but granted for the ELA count
(Docket # 35). On Joslyn’s motion (see Docket # 36), the
Court later revised the rationale underlying its decision to deny summary judgment as to the CERCLA
and declaratory judgment counts, but nonetheless
affirmed the outcome (Docket # 39).
In January 2012, Joslyn moved for summary judgment on Valbruna’s remaining claims, arguing that
they were barred by the statute of limitations. (Docket
# 42.) The Court ultimately determined that the statute of limitations did not bar Valbruna from bringing
its CERCLA claim and the accompanying request for
declaratory judgment and denied Joslyn’s motion for
summary judgment in March 2013. (Docket # 50.)
Shortly thereafter, Joslyn moved for leave to file an
Amended Answer adding a Counterclaim and to
amend its claim preclusion and statute of limitations
defenses. (Docket # 52.) Valbruna objects to the motion
to the extent Joslyn seeks to amend these defenses and
requests they be stricken under Federal Rule of Civil
Procedure 12(f) since the Court has already determined they are not viable.2 (Docket # 54 at ¶¶ 5-6.)
Joslyn maintains that it moved for early summary
judgment on both the claim preclusion and statute of
limitations defenses in good faith, with the hope of
ending the case as quickly as possible. (Docket # 55.)
And although Joslyn recognizes that the Court has
2

Valbruna also seeks to strike these defenses pursuant to Federal Rule of Civil Procedure 8(b) because they are both approximately a page long (see Docket # 52-1 at 10-11) and, thus, are not
“short and plain” statements. (Docket # 54 at ¶¶ 5-6.) As the
affirmative defenses are properly stricken under Rule 12(f), the
Court need not address this argument.

28a
already rejected these defenses on summary judgment, it contends they are still issues in the case, subject to future discovery, and will prove availing next
time around. (Docket # 55.)
B. Applicable Law
Federal Rule of Civil Procedure 12(f) provides that a
court may, on its own or on a motion made by a party,
strike an insufficient defense from a pleading. FED. R.
CIV. P. 12(f). Motions to strike affirmative defenses
are generally disfavored because they can cause delay.
Heller Fin., Inc. v. Midwhey Powder Co., 883 F.2d
1286, 1294 (7th Cir. 1989). But where they “remove
unnecessary clutter from the case, they serve to
expedite not delay.” Id. Ultimately, however, affirmative defenses are stricken “only when they are insufficient on the face of the pleadings.” Cottle v. Falcon
Holdings Mgmt., No. 2:11-CV-95-PRC, 2012 WL 266968,
at *1 (N.D. Ind. Jan. 30, 2012) (quoting Williams v.
Jader Fuel Co., 944 F.2d 1388, 1400 (7th Cir. 1991)
(citing Heller, 883 F.2d at 1294 (“Ordinarily, defenses
will not be struck if they are sufficient as a matter of
law or if they present questions of law or fact.”))).
C. Analysis
A court may strike an affirmative defense as legally
insufficient when it has already addressed and rejected
the exact argument on a previous motion. See United
States ex rel. Spay v. CVS Caremark Corp., No. 094672, 2013 WL 1755214, at *3 (E.D. Pa. Apr. 24, 2013)
(striking identical affirmative defenses when the
Court had already squarely rejected those arguments
on a motion to dismiss); Prakash v. Pulsent Corp. Emp.
Long Term Disability Plan, No. C-06-7592 SC, 2008
WL 3905445, at *2 (N.D. Cal. Aug. 20, 2008) (striking
affirmative defense as legally insufficient where court

29a
had previously rejected exact argument on a motion to
dismiss); In re Modern Creative Serv., Inc. v. Dell, Inc.,
No. 05-3891 (JLL), 2008 WL 305747, at *3-4 (D. N.J.
Jan. 28, 2008) (striking affirmative defenses where court
had already considered and rejected same arguments
in context of a motion to dismiss); AMEC Civil, LLC v.
DMJM Harris, Inc., No. 06-64 (FLW), 2007 WL
433328, at *5 (D. N.J. Feb. 6, 2007) (striking certain
affirmative defenses “in light of the fact that” such
defenses “were already decided by this Court”); see
generally Ohmer Corp. v. Duncan Meter Corp., 8
F.R.D. 582, 583 (N.D. Ill. 1948) (where the issues presented in the affirmative defenses had already been
ruled upon by the court on a preliminary motion, the
record in the case would preserve defendant’s rights).
The same holds true when the Court specifically
considered and resolved the issues on summary
judgment. See In re YRC Worldwide, Inc. ERISA
Litig., No. 09-2593-JWL, 2011 WL 1457288, at *5 (D.
Kan. Apr. 15, 2011) (striking an affirmative defense
that the court had already squarely addressed and
rejected on defendants’ motion for summary judgment);
Zamboroski v. Karr, No. 04-73194, 2005 WL 2314011,
at *1 (W.D. Mich. Sept. 22, 2005) (striking qualified
immunity affirmative defense when the court had
already resolved the issue in the plaintiff’s favor when
denying summary judgment).
Here, the Court squarely addressed and explicitly
rejected the claim preclusion and statute of limitations
defenses in separate, lengthy opinions denying Joslyn’s
motions for summary judgment. (See Docket # 35, 39,
50.) As such, striking them from the Amended Answer
eliminates unnecessary clutter. See, e.g., In re YRC
Worldwide, Inc. ERISA Litig., 2011 WL 1457288, at

30a
*5; Zamboroski, 2005 WL 2314011, at *1; see also
Heller, 883 F.2d at 1294.
More to the point, Joslyn gambled with its summary
judgment motions that it could get out of the case
early, perhaps a sound strategic move, but also one
with consequences. Having elected to consume substantial judicial and litigant resources early on, Joslyn
does not get another chance—presumably after even
more extensive and expensive discovery—to assert
defenses the Court has already rejected as a matter of
law. See Spay, 2013 WL 1755214, at *3 (refusing to
allow Defendants another bite at the apple to reassert,
in an alternative format, the identical theory that the
Court previously rejected on a motion to dismiss);
Middlegate Dev., LLP v. Beede, No. 10-0565-WS-C,
2011 WL 3475474, at *11 n.26 (S.D. Ala. Aug. 9, 2011)
(refusing to allow litigants to treat their initial
summary judgment motions as a “dry run” which they
can later redo or supplement); see generally Divane v.
Krull Elec. Co., No. 95 C 6108, 2002 WL 31844987, at
*1 (N.D. Ill. Dec. 18, 2002) (denying request for successive motion for summary judgment in absence of “good
reasons” and explaining that “[t]his court has neither
the time nor the inclination to consider arguments one
at a time in serial motions, to suit a litigant’s convenience”). Even though Joslyn is not seeking now, of
course, leave to file another motion for summary judgment, allowing it to continue to assert previously
rejected affirmative defenses gives it the unwarranted
hope that it can do so in the future, or the “opportunity
to seek reconsideration” of the Court’s prior ruling.
Spay, 2013 WL 1755214, at *3.
Finally, while Joslyn asserts, but without specificity, that with more discovery it can overcome some of
the Court’s previous factual determinations, it appears

31a
that discovery did occur—or was available—before
Joslyn filed its summary judgment motions, and therefore, since these affirmative defenses were fully litigated and found unavailing as a matter of law, they
should be stricken.
D. Conclusion
Accordingly, Valbruna’s motion to strike Joslyn’s
claim preclusion and statute of limitations affirmative
defenses (see Docket # 54 at 2 n.1) from Joslyn’s proposed Amended Answer is GRANTED. Joslyn’s Motion
for Leave to File Counterclaim (Docket # 52) is therefore GRANTED, provided however that the affirmative defenses of claim preclusion and the statute of
limitations will automatically be stricken from the
Amended Answer upon filing. The Clerk is directed to
show the Counterclaim and Amended Answer filed.
SO ORDERED.

32a
APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
FORT WAYNE DIVISION
————
Cause No. 1:10-CV-044 JD
————
VALBRUNA SLATER STEEL CORP. and
FORT WAYNE STEEL CORP.,
v.

Plaintiffs,

JOSLYN MANUFACTURING CO., et al.,
Defendants.
————
OPINION AND ORDER
Plaintiffs Valbruna Slater Steel Corporation and
Fort Wayne Steel Corporation (collectively “Valbruna”)
sued defendants Joslyn Manufacturing Company, et alia,
(“Joslyn”) on February 11, 2010. [DE 1].1 Valbruna is
the current owner of a parcel of land near Fort Wayne,
Indiana, which Joslyn occupied until 1981. Valbruna
is currently engaged in remedial efforts at the site in
cooperation with the Indiana Department of Environmental Management (“IDEM”). Valbruna’s complaint
essentially blames Joslyn for the contamination at the
site, and alleges three counts: (1) a cost recovery action
under the Comprehensive Environmental Response,
Compensation, and Liability Act (“CERCLA”), 42 U.S.C.
§ 9607(a); (2) a similar action under the Indiana
1

The record is cited in the following format: [“Docket Entry
Number” at “page or paragraph number within docket entry”].

33a
Environmental Legal Actions statute; and (3) a declaratory judgment of the defendant’s future liability.
Joslyn’s first move was to attempt to preclude the suit
based on earlier state court litigation with Valbruna’s
predecessor in interest. This court found that the
Indiana ELA claim was precluded, but that the federal
claims survived. [DE 35; DE 39]. On January 13, 2012,
Joslyn moved for summary judgment against Valbruna’s
remaining claims, arguing that they are barred by the
statute of limitations. On March 14, 2012, Valbruna
responded, and moved to strike certain exhibits supporting Joslyn’s motion. On March 28, 2012, the
briefing was completed, and the motions have been
under advisement. Having considered the law and the
facts of this case, the court now denies Joslyn’s motion
for summary judgment [DE 42], and denies Valbruna’s
motion to strike [DE 47], for the reasons discussed in
this order.
STANDARD OF REVIEW
Summary judgment is proper where the pleadings,
depositions, answers to interrogatories, and admissions on file, together with the affidavits, if any, show
that there is no genuine issue as to any material fact
and that the moving party is entitled to judgment as
a matter of law. Fed. R. Civ. P. 56(c); Lawson v. CSX
Transp., Inc., 245 F.3d 916, 922 (7th Cir. 2001). A
“material” fact is one identified by the substantive
law as affecting the outcome of the suit. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). A “genuine issue” exists with respect to any such material fact,
and summary judgment is therefore inappropriate,
when “the evidence is such that a reasonable jury
could return a verdict for the non-moving party.” Id.
On the other hand, where a factual record taken as a
whole could not lead a rational trier of fact to find for

34a
the non-moving party, there is no genuine issue for
trial. Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986) (citing Bank of Ariz. v.
Cities Servs. Co., 391 U.S. 253, 289 (1968)).
In determining whether a genuine issue of material
fact exists, this Court must construe all facts in the
light most favorable to the non-moving party, as well
as draw all reasonable and justifiable inferences in her
favor. Anderson, 477 U.S. at 255; King v. Preferred
Tech. Grp., 166 F.3d 887, 890 (7th Cir. 1999). Still,
the non-moving party cannot simply rest on the allegations or denials contained in its pleadings. It must
present sufficient evidence to show the existence of
each element of its case on which it will bear the
burden at trial. Celotex Corp. v. Catrett, 477 U.S. 317,
322-323 (1986); Robin v. Espo Eng’g Corp., 200 F.3d
1081, 1088 (7th Cir. 2000). Furthermore, the nonmoving party may rely only on admissible evidence.
Lewis v. CITGO Petroleum Corp., 561 F.3d 698, 704
(7th Cir. 2009).
The issue presented in this case is particularly
appropriate for resolution at the summary judgment
stage. Not only are the material facts undisputed [DE
49 at 1], but the primary issue is whether certain work
undertaken by the plaintiff’s predecessor in interest
in the 1980s and 1990s was a “remedial action” or a
“removal action” under CERCLA. That is a question of
law. Cytec Industries, Inc. v. B.F. Goodrich Co., 232
F.Supp.2d 821, 832 (S.D. Ohio 2002); OBG Technical
Services, Inc. v. Northrup Grumman Space & Mission
Sys. Corp., 503 F.Supp.2d 490, 524 (D.Conn. 2007).

35a
BACKGROUND2
From 1928 to 1981, defendant Joslyn Manufacturing
Company owned and operated a steel mill at 2302 and
2400 Taylor Street in Fort Wayne, Indiana (collectively
“the Site”). [DE 28-1 at 1; DE 28-2 at 11-13]. During
Joslyn’s tenure, steel mill operations polluted the
Site’s soil and groundwater with chlorinated solvents,
metals, and other contaminants. On February 2, 1981,
Joslyn sold the Site to Slater Steels Corporation
(“Slater”). In connection with the sale, the two companies signed an Asset Purchase Agreement (“APA”) in
which Joslyn agreed to indemnify Slater for certain
costs and expenses. [DE 20-1 at 19-22].
From 1981 to 1987, Slater excavated sludge and
metal-contaminated soil from two areas of the Site:
(1) Joslyn’s former surface impoundment (located in
the far northeast corner of the Site) and (2) Joslyn’s
former waste pile (located in the far northwest corner
of the site). [DE 46-6 ¶ 3]. The excavation did not
remove all of the contaminants from the former
surface impoundment, so additional action was
necessary. [DE 46-6 ¶ 4]. In 1988, Slater signed a
Consent Agreement and Final Order with the United
States Environmental Protection Agency (“EPA”) obligating Slater to monitor groundwater at the Site until
the Indiana Department of Environmental Manage-

2

This section is not meant to be an exhaustive catalogue of
every fact or piece of evidence presented to the court. It is simply
meant to provide a brief narrative of the events underlying the
case. The inclusion of a fact in this section does not mean that it
is material, and the exclusion of a fact does not mean that it is
immaterial, or that the court did not consider it. The court will
recount particularly relevant facts where appropriate in the discussion section.

36a
ment (“IDEM”) could certify the clean closure of the
polluted areas under excavation. [DE 46-7 at 8].
In 1991, Slater filled the excavated area at the
surface impoundment with clean, compacted soil, constructed a reinforced-concrete cap over the impoundment
area, and implemented a groundwater detection monitoring program. [DE 42-7 at 36]. On January 19, 1996,
Slater submitted an application to the Indiana
Department of Environmental Management (“IDEM”)
Voluntary Remediation Program. [DE 42-5]. The
application noted that the site investigation was
complete, and that the site remediation was complete.
[DE 42-5]. On February 7, 1996, IDEM accepted the
application. [DE 42-8 at 1]. On June 14, 1999, IDEM
issued a certificate of completion to Slater concerning
their work in the Voluntary Remediation Program.
[DE 42-7 at 11]. The certificate did not represent a
successful remediation of the entirety of the Site,
however. To the contrary, attached documents verified
that investigative work was going on elsewhere on
Slater’s property. It simply acknowledged a successful
remediation of the former Joslyn surface impoundment location on the far northeast corner of the Site.
On several occasions between 1988 and 1999, Slater
sought indemnification under the APA for cleanup
costs relating to alleged historical contamination of
the Site, but Joslyn denied those requests. [DE 28-6;
DE 28-7].
On May 17, 2000, IDEM issued a Notice of Violation
(“NOV”) to Slater. [DE 46-7]. IDEM had determined
that there was a release of trichloroethylene into the
environment at the Site, and enclosed a proposed
Agreed Order for Slater to sign and return. Among
other things, the Agreed Order required Slater to
notify IDEM in the event that a “current or potential”

37a
threat to human health or the environment developed.
[DE 46-7 at 11]. In total, the Agreed Order outlined 45
areas of concern, stemming from various locations on
the Site, which Slater was to investigate for potential
threats to the environment. [DE 46-7 at 77-82]. On
July 17, 2000, Slater filed suit against Joslyn in the
Allen County Superior Court, again seeking indemnification. [DE 28-9]. Counts I and II of that suit raised
claims of contractual indemnification based on the APA,
while Count III brought an ELA claim under Indiana
Code §§ 13-30-9-1 et seq. [DE 28-9]. On October 30,
2000, Joslyn filed a motion to dismiss Slater’s claims.
On April 19, 2001, the court denied the motion with
respect to Counts I and II, and granted the motion
with respect to Count III. Count III was later dismissed with prejudice for a failure to prosecute.
On March 25, 2002, Slater executed and joined in
the Agreed Order which IDEM had proposed when
it issued the Notice of Violations. [DE 46-10]. On
September 11, 2002, Slater provided IDEM with a
proposed Remediation Work Plan for the entire Site.
[DE 46-13]. But on June 2, 2003, before IDEM could
issue final approval, and before Slater could begin
work on the Remediation Work Plan for the entire
Site, Slater filed a Chapter 11 voluntary bankruptcy
petition in the U.S. Bankruptcy Court for the District
of Delaware. [DE 28-12]. At auction, Valbruna Slater
Stainless Inc., the plaintiffs’ corporate parent, purchased the site. In April, 2004, the plaintiffs – Valbruna
Slater Steel Corporation and Fort Wayne Steel Corporation (collectively “Valbruna”) – purchased the
Site from their parent corporation. In so doing, Valbruna
entered into a Prospective Purchaser Agreement
(“PPA”) with IDEM. The PPA essentially required a
$1 million commitment to carry out the work pre-

38a
viously contemplated by IDEM in its dealings with
Slater pre-bankruptcy.
On May 3, 2005, Valbruna’s environmental consultant
submitted a Remedial Work Plan to IDEM which laid
out a plan to use Electrical Resistance Heating (“ERH”)
for soil and groundwater remediation of trichloroethylene
at the Site. [DE 46-17]. IDEM approved, and the ERH
project commenced on May 23, 2005. [DE 46-18 at 7].
Although ERH was successful in eradicating 93.5% of
TCE from the soil and groundwater, work at the Site
continues with respect to other environmental issues.
But since Valbruna acknowledges that remedial efforts
began no later than May 23, 2005, cleanup efforts that
took place thereafter are not relevant to the purposes
of this order.
DISCUSSION
There are two motions to address: (1) Joslyn’s motion
for summary judgment [DE 42] and (2) Valbruna’s
motion to strike certain exhibits supporting that motion.
[DE 47]. For the following reasons, the court denies
Joslyn’s motion for summary judgment, even taking
all of the evidence submitted into account. As a result,
the motion to strike certain exhibits is denied as moot.
I. DEFENDANT’S MOTION FOR SUMMARY
JUDGMENT [DE 42]
In 1980, Congress enacted CERCLA in response to
the serious environmental and health risks posed by
industrial pollution. Burlington N. and Santa Fe Ry.
Co. v. United States, 556 U.S. 599, 602 (2009) (citing
United States v. Bestfoods, 524 U.S. 51, 55 (1998)).
Two CERCLA sections – 42 U.S.C. §§ 9607(a) and
9613(f) – afford rights of action to private parties
seeking to recover expenses associated with cleaning
up contaminated sites. See United States v. Atl.

39a
Research Corp., 551 U.S. 128 (2007). Valbruna is
pursuing an action under § 9607(a), the “cost recovery”
provision of CERCLA. [DE 1 at 5].3 A cost recovery
action essentially allows the person doing the work of
cleaning up a contaminated site to attempt to pass the
bill on to the person, or persons, actually responsible
for the pollution, provided certain conditions are met.
§ 9607(a)(4)(B). The purpose of CERCLA is to promote
the timely cleanup of hazardous waste sites and to
ensure that the costs of such cleanup efforts are borne
by those responsible for the contamination. Burlington
N., 556 U.S. at 602 (citing Consol. Edison Co. of N.Y.
v. UGI Util., Inc., 423 F.3d 90, 94 (2d Cir. 2005));
Key Tronic Corp. v. United States, 511 U.S. 809, 819 n.
13 (1994) (“CERCLA is designed to encourage private
parties to assume the financial responsibility of cleanup
by allowing them to seek recovery from others.”).
In its motion for summary judgment, Joslyn argues
that Valbruna’s cost recovery action, filed on February
11, 2010, is barred by the statute of limitations. The
limitations period for an initial action for recovery of
costs can be found at 42 U.S.C. § 9613(g)(2). That
section provides, in relevant part:
(2) Actions for recovery of costs
An initial action for recovery of the costs
referred to in section 9607 of this title must
be commenced —
(A) for a removal action, within 3 years after
completion of the removal action . . .

3

Valbruna is also pursuing a declaratory judgment of Joslyn’s
continuing liability for contamination at the Site [DE 1 at 7], but
for all purposes relevant to this order, that claim is derivative to
the cost recovery action.

40a
(B) for a remedial action, within 6 years after
initiation of physical on-site construction
of the remedial action . . . [.]
Both parties agree that the action Valbruna is currently taking at the Site (the ERH and associated
cleanup efforts) is a “remedial action,” so subsection
9613(g)(2)(B) governs when the statute of limitations
began to run for this lawsuit. The issue under debate
is when the triggering event – the “initiation of
physical on-site construction of the remedial action” –
occurred. Valbruna argues that it occurred in 2005,
when the ERH project commenced. Joslyn believes that
it occurred in the 1980s or early 1990s, when Slater
first attempted to address pollution at the Joslyn
surface impoundment and waste pile areas, and
that this lawsuit is therefore time-barred.4 Valbruna’s
rejoinder is that those earlier actions were removal
actions, not a part of the current remedial action. As
a result, Valbruna argues, any recovery for those
expenses is barred under subsection 9613(g)(2)(A), but
that has no effect on recovery for the remedial action
currently underway.
The court agrees with Valbruna that Slater’s actions
were removal actions, and therefore do not determine
when the statute of limitations began to run for a cost
recovery action based on Valbruna’s current remedial
work. Moreover, there is an alternate basis for denying
4

In passing, the court notes that the earliest date that the
cause of action could have accrued is October 17, 1986, which is
the effective date of the CERCLA statute of limitations, because
the limitations period cannot have begun to run prior to its enactment. See United States v. Fairchild Indus., Inc., 766 F.Supp.
405, 415 (D. Md. 1991); Velsicol Chemical Corp. v. Enenco, Inc.,
9 F.3d 524, 528–29 (6th Cir. 1993); United States v. Moore, 698
F.Supp. 622, 625–27 (E.D. Va. 1988).

41a
summary judgment apparent in the record. Even if
Slater’s actions were remedial in nature, the undisputed evidence shows that they were discrete, divisible
“operable units” such that they have no bearing on
Valbruna’s ability to recover for the remedial action
now underway.
A. Slater’s Cleanup Efforts in the 1980s and
1990s Were Removal Actions, so the Present
Action Is Timely.
The court agrees with Valbruna that the actions
Slater took in the 1980s and 1990s were removal
actions, for two reasons. First, federal regulations identify
those exact actions, when taken under circumstances
like those present in this case, as removal actions.
Second, although Slater’s efforts have some characteristics in common with both removal and remedial
actions as generally exemplified in the case law, on
balance they are more consistent with what courts
typically consider to be removal actions. As a result,
Valbruna’s lawsuit is not time-barred.
1. The statutory scheme and federal regulations suggest that Slater’s activity was a
removal.
The terms “removal action” and “remedial action”
represent the two primary forms of response contemplated by CERCLA, and they are statutorily defined:
(23) The terms “remove” or “removal” means the
cleanup or removal of released hazardous substances from the environment, such actions as
may be necessary taken in the event of the threat
of release of hazardous substances into the environment, such actions as may be necessary to
monitor, assess, and evaluate the release or threat
of release of hazardous substances, the disposal of

42a
removed material, or the taking of such other
actions as may be necessary to prevent, minimize,
or mitigate damage to the public health or welfare
or to the environment, which may otherwise
result from a release or threat of release. The term
includes, in addition, without being limited to,
security fencing or other measures to limit access,
provision of alternative water supplies, temporary
evacuation and housing of threatened individuals
not otherwise provided for, action taken under
section 9604(b) of this title, and any emergency
assistance which may be provided under the
Disaster Relief and Emergency Assistance Act
[42 U.S.C.A. § 5121 et seq.].
(24) The terms “remedy” or “remedial action”
means those actions consistent with [the] permanent remedy taken instead of or in addition to
removal actions in the event of a release or
threatened release of a hazardous substance into
the environment, to prevent or minimize the
release of hazardous substances so that they do
not migrate to cause substantial danger to present
or future public health or welfare or the environment. The term includes, but is not limited to,
such actions at the location of the release as
storage, confinement, perimeter protection using
dikes, trenches, or ditches, clay cover, neutralization, cleanup of released hazardous substances
and associated contaminated materials, recycling
or reuse, diversion, destruction, segregation of
reactive wastes, dredging or excavations, repair or
replacement of leaking containers, collection of
leachate and runoff, onsite treatment or incineration, provision of alternative water supplies, and
any monitoring reasonably required to assure
that such actions protect the public health and

43a
welfare and the environment. The term includes
the costs of permanent relocation of residents and
businesses and community facilities where the
President determines that, alone or in combination with other measures, such relocation is more
cost-effective than and environmentally preferable
to the transportation, storage, treatment, destruction, or secure disposition offsite of hazardous
substances, or may otherwise be necessary to protect the public health or welfare; the term includes
offsite transport and offsite storage, treatment,
destruction, or secure disposition of hazardous
substances and associated contaminated materials.
42 U.S.C. § 9601(23)-(24).
At first glance, it would appear that the actions
Slater took at the surface impoundment and waste pile
qualify as a “remedial action;” the definition specifically includes excavations and clay covers, inter alia.
§ 9601(24). But cases suggest that, under a proper
reading of the statutory distinction, it is not possible
to determine whether an action is a removal action or
a remedial action based solely on the characteristics of
the action itself. The court must instead look to the
circumstances which the action is meant to address.
Practically speaking, “removal actions are ‘those taken
to counter imminent and substantial threats to public
health and welfare,’ while remedial actions ‘are longer
term, more permanent responses.’” Morrison Enters.,
LLC v. Dravo Corp., 638 F.3d 594, 608 (8th Cir. 2011)
(quoting Minnesota v. Kalman W. Abrams Metals, Inc.,
155 F.3d 1019, 1024 (8th Cir. 1998)); see also See also
Carson Harbor Village, Ltd. v. Unocal Corporation,
287 F.Supp.2d 1118, 1158 (C.D. Cal. 2003) (property
owner’s cleanup of tar-like and slag materials was
“remedial action” because there was no evidence that

44a
the materials posed the type of threat to human health
and welfare that required immediate action); Advanced
Micro Devices, Inc. v. National Semiconductor Corp.,
38 F.Supp.2d 802, 810 (N.D. Cal. 1999) (removal
actions are “short-term action[s] taken to halt the
immediate risks posed by hazardous wastes”); Channel
Master Satellite Systems, Inc. v. JFD, 748 F.Supp. 373,
385 (E.D.N.C. 1990) (“The courts have consistently
found that the removal category was to be used in that
limited set of circumstances involving a need for rapid
action, while non-urgent situations are to be
addressed as remedial actions”).
Moreover, the federal regulations support that
approach. They provide a non-exhaustive list of
actions which qualify as “removals,” but only under
certain circumstances:
(1) Fences, warning signs, or other security or
site control precautions – where humans or
animals have access to the release;
(2) Drainage controls, for example, run-off or
run-on diversion – where needed to reduce
migration of hazardous substances or pollutants or contaminants off-site or to prevent
precipitation or run-off from other sources, for
example, flooding, from entering the release
area from other areas;
(3) Stabilization of berms, dikes, or impoundments or drainage or closing of lagoons –
where needed to maintain the integrity of the
structures;
(4) Capping of contaminated soils or sludges –
where needed to reduce migration of hazardous substances or pollutants or contaminants
into soil, ground or surface water, or air;

45a
(5) Using chemicals and other materials to
retard the spread of the release or to mitigate
its effects – where the use of such chemicals
will reduce the spread of the release;
(6) Excavation, consolidation, or removal of highly
contaminated soils from drainage or other
areas – where such actions will reduce the
spread of, or direct contact with, the contamination;
(7) Removal of drums, barrels, tanks, or other
bulk containers that contain or may contain
hazardous substances or pollutants or contaminants – where it will reduce the likelihood of
spillage; leakage; exposure to humans, animals,
or food chain; or fire or explosion;
(8) Containment, treatment, disposal, or incineration of hazardous materials – where
needed to reduce the likelihood of human,
animal, or food chain exposure; or
(9) Provision of alternative water supply – where
necessary immediately to reduce exposure to
contaminated household water and continuing until such time as local authorities can
satisfy the need for a permanent remedy.
40 C.F.R. § 300.415(e)(1)-(9). One can see immediately
that it is, at least partially, the circumstances in which
an action is taken that must determine whether that
action is a “removal” or a “remedial” action under the
statutory and regulatory scheme. Otherwise, the list
of removal actions contained in the federal regulations
would be hopelessly in conflict with the statutory text.
In fact, every item listed in the regulations as a
“removal action” is also specifically included in the

46a
meaning of “remedial action” by the statutory definition. See 42 U.S.C. § 9601(24).
Items (4) and (6) seem directly applicable to what
Slater did in this case. Slater’s actions consisted of soil
and sludge excavations, site capping, and groundwater monitoring and assessment. [DE 42-7 at 36]. The
purpose of those efforts was, among other things, to
“prevent or mitigate any migration or releases of
hazardous waste and/or hazardous constituents at or
from the facility.” [DE 46-7 at 8]. Such releases, or
threatened releases, had drawn the attention of the
EPA and IDEM, which were not convinced (despite
Slater’s efforts) that conditions at the areas in question following initial excavation were “not harmful to
human health and the environment [or] that closure
by removal had been achieved.” [DE 46-7 at 9]. IDEM
was also concerned, based on regional groundwater
movement patterns, that the pollutants at issue would
transfer into a local river, especially given the relatively shallow depth of groundwater in the area. [DE
46-7 at 8-9]. Joslyn seems to suggest that the fact that
Slater’s efforts to clean up the surface impoundment
began with its desire to come into compliance with the
newly-passed Resource Conservation and Recovery
Act (“RCRA”) means it could not have been a removal
action, but that seems to be besides the point. Whether
Slater was combating an impending environmental
threat out of fear of regulatory enforcement or out of a
more benevolent desire to keep others safe, either way
it was still combating an impending environmental
threat.
The court recognizes that it is not an easy question,
considering the overlap between the statutory definitions. See Public Serv. Co. of Colo. v. Gates Rubber Co.,
175 F.3d 1177, 1182 (10th Cir. 1999) (noting that

47a
elements of remedial actions and removal actions
“may overlap and semantics often obscure the actual
nature of the cleanup performed”). But where, as here,
the actions were taken as a sort of “first response,” in
order to mitigate a substantial present or threatened
release of pollutants into ground and surface water,
EPA regulations strongly suggest classifying them as
“removal” actions. 40 C.F.R. § 300.415(e)(4); (e)(7).
2. On balance, Slater’s activities are more
consistent with what courts typically
consider to be removal actions than with
what courts typically consider to be
remedial actions.
Although Slater’s efforts have some characteristics
in common with both removal and remedial actions as
generally exemplified in the case law, on balance they
are more consistent with what courts typically consider to be removal actions.
Joslyn relies on only a few cases to argue that
Slater’s actions were part of the “remedial” action to
be taken at the Site. The first, and the case on which
Joslyn relies most heavily, is Cytec Indus., Inc. v. B.F.
Goodrich Co., 232 F.Supp.2d 821 (S.D. Ohio 2002). In
Cytec, cleanup efforts at a contaminated site commenced after the EPA inspected the facility for RCRA
compliance and designated 28 waste management
areas for further evaluation. Id. at 825-26. The plaintiff began its compliance efforts by designating two
ponds – the major problem areas identified by the EPA
evaluation – for closure. Id. at 826. The court was
asked to consider whether the pond cleanups were
part of the larger remedial action for the entire site. It
found that they were, largely because “[t]he cleanup of
Ponds 1 and 2 was not the result of an immediate
release or threat of release of hazardous substances[.]”

48a
Id. at 838. The court also considered that removal
actions generally cost less, and take less time, than
remedial actions. Id. at 833. “Further, ‘[r]emoval
concerns are more procedural in nature in that they
speak to ‘monitoring,’ ‘assessing,’ and ‘evaluating’ the
measures necessary to abate short-term, manageable
environmental cleanup.’” Id. (quoting Rhodes v. County
of Darlington, S.C., 833 F.Supp. 1163, 1182 (D.S.C.
1992)).
Joslyn thinks Cytec is a near-exact analogue, but the
facts of this case produce a mixed match at best. On
one hand, Slater’s actions in this case spanned several
years – roughly a decade, in fact. That does seem
incompatible with the typically short time duration
ascribed to removal actions by Cytec and other authorities. See Pub. Serv. Co. v. Gates Rubber Co., 175 F.3d
1177, 1182 (10th Cir. 1999) (“Generally, a removal
action costs less, takes less time, and is geared to
address an immediate release or threat of release,”
whereas a remedial action, which “usually cost[s] more
and take[s] longer,” “seeks to effect a permanent
remedy to the release of hazardous substances when
there is no immediate threat to the public health”).
But on the other hand, unlike the cleanup in Cytec, the
Slater cleanup in this case does appear to have been
for the purpose of combating the threat of release of
hazardous substances, as indicated in the documentary evidence, although RCRA compliance was
obviously also on the table. The cleanup at the surface
impoundment and waste pile do not appear to have
come at great expense, and the Slater cleanup plans
spoke to “monitoring,” “assessing,” and “evaluating” at
considerable length, all of which the Cytec court
considered to be indicative of a removal action, not a
remedial action. See 232 F.Supp.2d at 833. Moreover,
the duration of an action is just one factor to consider.

49a
Under the right circumstances, a removal action can
last quite some time. See Vill. of Milford v. K-H
Holding Corp., 390 F.3d 926, 934 (6th Cir. 2004) (in
which the Sixth Circuit held that a short terms of
duration are not “requirements for finding the costs of
action recoverable as removal costs); United States v.
Nalco Chem. Co., 2002 WL 548840 (finding a removal
action lasting from 1974 to 1998).
Beyond Cytec, Joslyn only cites a few authorities,
and does so in passing. Joslyn cites United States v.
Navistar Intl. Trans. Corp., 152 F.3d 702, 713 (7th Cir.
1998), for the proposition that the placement of a
clay cover over a landfill triggers the subsection
9613(g)(2)(B) limitations period, but the parties in
that case did not dispute that the action in question
was remedial. They disputed only when the remedial
action was initiated. Joslyn also cites Schaefer v. Town
of Victor, 457 F.3d 188, 203-204 (2d Cir. 2006), and
Yankee Gas Services Co. v. UGI Utilities, Inc., 616
F.Supp.2d 228 271-75 (D.Conn. 2009), to suggest that
excavation and re-fill activities are inherently remedial
in nature. But putting so much emphasis on the type
of activity undertaken, and not on the circumstances
in which it was undertaken, seems to fly in the face of
the regulatory framework, as discussed above. It also
conflicts with the Seventh Circuit’s previous acknowledgment that excavation and capping can be considered
a removal action. See Schalk v. Reilly, 900 F.2d 1091,
1093 (7th Cir. 1990) (splitting a cleanup effort into “a
removal action involving surface excavation and capping
of abandoned dump sites” and a subsequent remedial
action to eradicate all hazardous wastes); see also
United States v. Cantrell, 92 F.Supp.2d 704, 715 (S.D.
Ohio 2000) (clay capping considered a removal action).

50a
Viewing all of the factors the courts in these cases
have considered, it seems clear that Slater’s actions
were a removal, not a remediation. The only factors
weighing in favor of classifying the actions as a
remediation is that the process took several years, and
that cleaning up those two small sites was consistent
with the purpose of the wider remedial action now
underway. [DE 49 at 6]. But the duration is not dispositive. See United States v. Peterson Sand & Gravel,
Inc., 824 F.Supp. 751, 753 (N.D. Ill. 1991) (“Clearly,
the term removal . . . includes time necessary to
dispose of the removed material as well as the time
needed to evaluate the need for further activity”). And
consistency with the objectives of remediation cannot,
alone, be enough. If one adopts a wide enough perspective, every removal action is consistent with every
remedial action in that all are attempts to alleviate
environmental concerns. Joslyn’s argument is generic
in that way; it claims that the earlier actions were
steps towards the permanent remedy simply because
they removed contamination. [DE 49 at 6]. But the
excavations and capping at the surface impoundment
and waste pile were not consistent with current ERH
remedial measures in any case-specific, meaningful
way. In fact, excavation/removal and the in-place eradication of contaminants through ERH seem like two
completely unrelated ways to combat contaminants in
the soil and groundwater.
More importantly, the Slater cleanup in the 1980s
and 1990s was undertaken to combat an environmental threat, was narrowly tailored to address that specific
threat, included monitoring and evaluation components with an eye towards a larger-scale remedial
action in the future, and was not exceptionally complex
or expensive. Under the relevant cases as cited by
both parties, all of those factors weigh in favor of

51a
considering Slater’s cleanup efforts at the surface
impoundment and waste pile a removal action. That
interpretation is also consistent with the federal
regulations, which specifically designate the actions
taken by Slater, in this context, as “removal actions.”
3. Valbruna’s lawsuit is timely.
The court has determined that Slater’s actions in
the 1980s and 1990s were not remedial in nature, but
were a prior removal action. The next question is
whether the “initiation of physical on-site construction
of the remedial action” which is currently ongoing
occurred within six years of the filing of this lawsuit.
The suit was filed on February 11, 2010. That means
the triggering event must have occurred sometime
after the same date in 2004, in order for Valbruna’s
remedial expenses to be recoverable. It is undisputed
that the ongoing remedial action was in the planning
stages several years before that date. For example, on
September 11, 2002, Slater initially provided IDEM
with a proposed Remediation Work Plan for the entire
Site. [DE 46-13]. But Slater entered bankruptcy not
long thereafter, and no work was commenced with
respect to the remedial plan until several years later.
Specifically, on May 3, 2005, Valbruna’s environmental consultant submitted a Remedial Work Plan to
IDEM which laid out a plan to use ERH for soil and
groundwater remediation of trichloroethylene at the
Site. [DE 46-17]. IDEM approved, and the ERH project
commenced on May 23, 2005. [DE 46-18 at 7].
In our circuit, the triggering event occurs when “the
(1) physical (2) initiation (3) on the site (4) of the
construction (5) of the remedial action” takes place.
Navistar, 152 F.3d at 711. It need not occur after the

52a
final remedial work plan is adopted, Id. at 711-12,5 and
it in fact occurred earlier in this case. The earliest
evidence the court can find in the record of physical
on-site construction consistent with the remediation
plan is when Valbruna’s environmental consultant
“mobilized the [Site] for well abandonment and the
installation of new monitoring wells” on February 14,
2005. [DE 46-17 at 22]. No party produced any evidence of actions prior to that date which might qualify
as the triggering event under the Navistar test (aside
from Slater’s actions in the 1980s and 1990s, which
this court has found do not qualify because they
constituted a removal effort). Since that date was
within the six years preceding the filing of the suit,
Valbruna’s action is timely and may proceed.
B. Even if Slater’s Actions Were Remedial in
Nature, They Were Discrete, Divisible
“Operable Units.”
Even if the actions Slater took in the 1980s and
1990s were remedial in nature, there is an alternative
basis for denying summary judgment on statute of
limitations grounds. Slater’s actions at the surface
impoundment and waste pile were a separate and
distinct cleanup effort from the ERH remediation, and
5

The Ninth Circuit has gone so far as to conclude that “the
initiation of physical on-site construction of the remedial action”
under the statute “can only occur after the final remediation plan
is adopted[,]” and that action taken before the plan adoption
cannot constitute “remedial action” for statute-of-limitations
purposes. California ex rel. Cal. Dep’t of Toxic Substances Control
v. Neville Chem. Co., 358 F.3d 661, 667 (9th Cir. 2004) (emphasis
added). That would mean the triggering event in this case could
not occur until on or after May of 2005, but our circuit has
previously declined to draw such a bright line. Navistar, 152 F.3d
at 711-12.

53a
as such had no effect on when the statute of limitations
began to run for the remedial action currently taking
place.
It is true that some courts have found that different
phases of the same removal or remedial action cannot
serve as the basis for separate legal actions. See
Colorado v. Sunoco, 337 F.3d 1233, 1241 (10th Cir.
2003); Kelley v. E.I. DuPont de Nemours and Co., 17
F.3d 836, 841-44 (6th Cir. 1994). In Sunoco, the Tenth
Circuit observed:
Although both subsections (A) and (B) of § 9613(g)(2)
use the indefinite article “a” to modify the phrases
“removal action” and “remedial action,” they also
both use the definite article “the” to modify those
same phrases. As asserted by defendants, use of
this definite article suggests there will be but a
single “removal action” and a single “remedial
action” per site. Perhaps most persuasive is the
language in subsection (B) which states that “if
the remedial action is initiated within 3 years
after the completion of the removal action, costs
incurred in the removal action may be recovered
in the cost recovery action brought under this
subparagraph.” In our view, this language indicates there will be but one “removal action” per
site or facility, as well as a single “remedial action”
per site or facility. If Congress intended to allow
multiple actions for separate components of recovery
or remedy, it surely would have used the indefinite article “a” rather than the definite article
“the” to modify the phrases “removal action” and
“remedial action.”
337 F.3d at 341-42 (internal citations omitted). The
Tenth Circuit’s conclusion – that Congress would have
used the indefinite article “a” to modify the phrases

54a
“removal action” and “remedial action” if it intended to
allow multiple actions for separate cleanup components – is interesting, considering that Congress did
use the indefinite article “a”, a fact which the Tenth
Circuit acknowledges earlier in the same paragraph.
To acknowledge that Congress used both “a” and “the,”
only to then assign dispositive importance to one of the
two without much more, seems less than convincing.
The Sixth Circuit’s approach in Kelley was similar.
See 17 F.3d at 843 (concluding that Congress’s choice
of the modifying articles “a” and “the” to precede
“removal action,” see 42 U.S.C. § 9613(g)(2)(A), if it
proves anything, proves that Congress intended that
there generally will be only one removal action.”). This
court is reluctant to decide such a significant issue
relying solely on the use of definite and indefinite
articles.
A more thorough examination comes from United
States v. Manzo, 182 F.Supp.2d 385 (D.N.J. 2000). In
Manzo, Judge Cooper agreed that the statute was
ambiguous. But rather than infer congressional intent
from the use of one form of article where two forms of
article were used, Judge Cooper discussed at length
the legislative history of the statute and the administrative framework established by the EPA. Id. at
401-02. Among other things, she noted that the House
Conference Report accompanying the SARA6 amendment to CERCLA in 1986 explicitly acknowledged the
availability of multiple actions based on separate
“phases” of a cleanup:
Similarly, if a response action is being conducted
at a complex site with many areas of contamina6

Referring to the “Superfund Amendments and Reauthorization
Act,” which created the statute of limitations under discussion.

55a
tion, a challenge could lie to a completed excavation
or incineration response in one area, as defined
in a Record of Decision, while a pumping and
treating response activity was being implemented
at another area of the facility. It should be the
practice of the President to set forth each separate
and distinct phase of a response action in a
separate Record of Decision document. Any challenge
under this provision to a completed stage of a
response action shall not interfere with those
stages of the response action which have not been
completed.
H.R. Conf. Rep. No. 99-962 at 224 (1986), reprinted
in 1986 U.S.C.C.A.N. 3276, 3317 (emphasis added).
This expression of congressional intent could not be
more clear. Not only did Congress intend to make
different actions available for different phases of a
response, it urged the President to set forth EPA
regulations consistent with that intent.
Judge Cooper accordingly concluded that separate
actions for multiple removal or remedial actions
can be available under the right circumstances. But,
obviously, breaking down a response action too far is
unacceptable. See, e.g., Kelley, 17 F.3d at 843 (noting
that, clearly, each barrel removed from a cleanup
site does not trigger a new limitations period). Judge
Cooper reasoned that the logical “breakdown point” is
one essentially consistent with the EPA concept of the
“operable unit.” 182 F.Supp.2d at 402. An “operable
unit,” as defined by EPA regulations:
[M]eans a discrete action that comprises an incremental step toward comprehensively addressing
site problems. This discrete portion of a remedial
response manages migration, or eliminates or
mitigates a release, threat of a release, or path-

56a
way of exposure. The cleanup of a site can be
divided into a number of operable units, depending
on the complexity of the problems associated with
the site. Operable units may address geographical
portions of a site, specific site problems, or initial
phases of an action, or may consist of any set of
actions performed over time or any actions that
are concurrent but located in different parts of a
site.
40 C.F.R. § 300.5. The regulation is reflective of the
reality that CERCLA cleanups often, like the one in
this case, span several decades. They tend to evolve
continuously, in phases, from the initial detection of
contamination to a final solution for the entire threatened site. Moreover, EPA regulations are entitled to
deference, especially where the statutory text is ambiguous. 182 F.Supp.2d at 402 (citing Chevron U.S.A.,
Inc. v. Natural Res. Def. Council, Inc., 467 U.S. 837,
842-44 (1984); Christensen v. Harris County, 529 U.S.
576 (2000). The regulations, in addition to the legislative history, suggest the availability of multiple actions.
Many courts have recognized that CERCLA response
actions are conducted in divisible parts, and, like
Judge Cooper in Manza, have tethered the statute of
limitations in one way or another to the “operable
units,” or distinct phases, of a cleanup project. See, e.g.,
United States v. Ambroid Co., Inc., 34 F.Supp.2d 86
(D.Mass. 1999) (considering each of several remedial
actions separately for purposes of determining the
statute of limitations); Douglas Autotech Corp. v. The
Scott Fetzer Co., 2008 WL 205217 (W.D. Mich. 2008)

57a
(analyzing two cleanup phases separately for statute
of limitations purposes).7
The evidence in this case shows that even if Slater’s
actions at the surface impoundment and waste pile
were remedial actions, they were distinct from the
remedial project undertaken by Valbruna over the last
decade. First, they were the product of a different set
of consent orders with IDEM and the EPA, issued in
the 1980s. [DE 46-7]. Second, they dealt primarily with
RCRA compliance in two small areas that comprised
only a fraction of the whole Site, not with overall
CERCLA compliance at the whole Site, as the current
remedial plan does. Third, they were completed in the
early 1990s and certified completed by IDEM in 1999.
[DE 42-7 (certificate of completion of work required
at surface impoundment and waste pile)]. That was
before the current Site-wide remedial action was even
found to be necessary [DE 46-7 (Notice ov Violation
issued in 2000)], developed [DE 46-13 (proposed remediation work plan submitted to IDEM in September of
2002)], approved, or put into action. [DE 46-18 (both
7

The court notes that the Seventh Circuit has also recently
employed the “divisibility” approach to a CERCLA statute of
limitations question. See Bernstein v. Bankert, 702 F.3d 964, 98184 (7th Cir. 2012) (analyzing a pair of removal actions separately
for statute of limitations purposes where each removal action
was the product of a separate consent order and where the first
removal action was certified complete by the EPA before the
nature of the second removal action was even determined); but
see Navistar, 152 F.3d 702, 713 (noting that the mere fact that a
first attempt at removal fails and has to be repeated does not
mean that a second attempt of the same removal action founds a
new cause of action). Since the time available for possible rehearing on the Bernstein decision has not yet expired, this court will
not rely on Bernstein as diapositive. But there is no need to do so.
The remaining authorities on the issue are persuasive.

58a
occurring in 2005)]. Finally, and most importantly,
Slater’s cleanup effort at the surface impoundment
and waste pile perfectly match the regulatory definition of a distinct “operable unit,” in that it was a
“discrete action that comprise[d] an incremental step
toward comprehensively addressing site problems” which
“manage[d] migration, or eliminate[d] or mitigate[d] a
release, threat of a release, or pathway of exposure”
and “address[ed] geographical portions of a site[.]”
40 C.F.R. § 300.5.
Slater’s actions in the 1980s and 1990s at the
surface impoundment and waste pile were removal
actions, and for that reason had no impact on when the
statute of limitations for the current remedial action
began to run. But even if they were remedial actions,
they were separate and distinct remedial actions –
“operable units” which were divisible from the current
project – which likewise had no bearing on when the
statute of limitations for the current project began to
run.
II. VALBRUNA’S MOTION TO STRIKE [DE 47]
On March 14, 2012, Valbruna moved to strike
eight of the exhibits Joslyn submitted in support of
summary judgment. [DE 47]. Joslyn’s objection is that
the exhibits – each retrieved from the IDEM website –
were not properly authenticated. Since the court has
concluded that Joslyn’s motion for summary judgment
must be denied as a matter of law even when the
exhibits in question are considered, it is not prejudicial
to Valbruna to allow them into the summary judgment
record. Valbruna’s motion to strike is accordingly
denied.

59a
CONCLUSION
For the reasons stated herein, Joslyn’s motion for
summary judgment [DE 42] is DENIED. The federal
regulations differentiating between removal and remedial
actions weigh in favor of classifying Slater’s activities
at the Site in the 1980s and 1990s as removal, rather
than remedial, activities, and the balance of the factors
referenced by the case law support the same conclusion. Even if that were not the case, Slater’s actions in
the 1980s and 1990s were distinct from the remedial
action underway, and therefore have no impact on
when the statute of limitations began to run. Finally,
Valbruna’s motion to strike [DE 47] is DENIED.
SO ORDERED.
ENTERED: March 21, 2013
/s/ JON E. DEGUILIO
Judge
United States District Court

60a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
CHICAGO, ILLINOIS 60604
————
No. 18-2633 & 18-2738
————
VALBRUNA SLATER STEEL CORPORATION, et al.,
Plaintiffs-Appellees, Cross-Appellants,
v.
JOSLYN MANUFACTURING COMPANY, et al.,
Defendants-Appellants, Cross-Appellees.
————
Appeal from the United States District Court for the
Northern District of Indiana, Fort Wayne Division
No. 1:10-cv-00044-JD
Jon E. DeGuilio, Judge
————
September 6, 2019
————
ORDER
Before WILLIAM J. BAUER, Circuit Judge, DAVID F.
HAMILTON, Circuit Judge, AMY J. ST. EVE, Circuit
Judge
On consideration of the petition for rehearing en banc,
no judge in regular active service has requested a vote
on the petition for rehearing en banc and the judges on
the original panel have voted to deny rehearing. It is,
therefore, ORDERED that the petition for rehearing
en banc is DENIED.

61a
APPENDIX F
42 U.S.C. § 9601
§ 9601. Definitions
* * *
(23) The terms “remove” or “removal” means the
cleanup or removal of released hazardous substances
from the environment, such actions as may be necessary taken in the event of the threat of release of
hazardous substances into the environment, such
actions as may be necessary to monitor, assess, and
evaluate the release or threat of release of hazardous
substances, the disposal of removed material, or the
taking of such other actions as may be necessary to
prevent, minimize, or mitigate damage to the public
health or welfare or to the environment, which may
otherwise result from a release or threat of release.
The term includes, in addition, without being limited
to, security fencing or other measures to limit access,
provision of alternative water supplies, temporary
evacuation and housing of threatened individuals not
otherwise provided for, action taken under section
9604(b) of this title, and any emergency assistance
which may be provided under the Disaster Relief and
Emergency Assistance Act.
(24) The terms “remedy” or “remedial action”
means those actions consistent with permanent remedy taken instead of or in addition to removal actions
in the event of a release or threatened release of a
hazardous substance into the environment, to prevent
or minimize the release of hazardous substances so
that they do not migrate to cause substantial danger
to present or future public health or welfare or the
environment. The term includes, but is not limited to,
such actions at the location of the release as storage,

62a
confinement, perimeter protection using dikes, trenches, or ditches, clay cover, neutralization, cleanup of
released hazardous substances and associated contaminated materials, recycling or reuse, diversion, destruction, segregation of reactive wastes, dredging or excavations, repair or replacement of leaking containers,
collection of leachate and runoff, onsite treatment or
incineration, provision of alternative water supplies,
and any monitoring reasonably required to assure that
such actions protect the public health and welfare and
the environment. The term includes the costs of permanent relocation of residents and businesses and
community facilities where the President determines
that, alone or in combination with other measures,
such relocation is more cost-effective than and environmentally preferable to the transportation, storage,
treatment, destruction, or secure disposition offsite of
hazardous substances, or may otherwise be necessary
to protect the public health or welfare; the term
includes offsite transport and offsite storage, treatment, destruction, or secure disposition of hazardous
substances and associated contaminated materials.
* * *

63a
42 U.S.C. § 9613
§ 9613. Civil proceedings
* * *
(g) Period in which action may be brought
* * *
(2) Actions for recovery of costs
An initial action for recovery of the costs referred to in
section 9607 of this title must be commenced—
(A) for a removal action, within 3 years after
completion of the removal action, except that such cost
recovery action must be brought within 6 years after
a determination to grant a waiver under section
9604(c)(1)(C) of this title for continued response
action; and
(B) for a remedial action, within 6 years after
initiation of physical on-site construction of the remedial action, except that, if the remedial action is initiated within 3 years after the completion of the removal
action, costs incurred in the removal action may be
recovered in the cost recovery action brought under
this subparagraph.
In any such action described in this subsection, the
court shall enter a declaratory judgment on liability
for response costs or damages that will be binding on
any subsequent action or actions to recover further
response costs or damages. A subsequent action or
actions under section 9607 of this title for further
response costs at the vessel or facility may be
maintained at any time during the response action,
but must be commenced no later than 3 years after the
date of completion of all response action. Except as
otherwise provided in this paragraph, an action may

64a
be commenced under section 9607 of this title for
recovery of costs at any time after such costs have been
incurred.
* * *

